Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   TEXAS STATE MEDICAID
   FRAUD CONTROL UNIT:
    2013 ONSITE REVIEW




                         Brian P. Ritchie
                 Acting Deputy Inspector General
                  for Evaluation and Inspections

                          April 2014
                        OEI-06-13-00300
EXECUTIVE SUMMARY — TEXAS STATE MEDICAID FRAUD CONTROL UNIT:
2013 ONSITE REVIEW
OEI-06-13-00300

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees the activities of all Medicaid Fraud Control
Units (MFCUs or Units). As part of this oversight, OIG conducts periodic reviews of all Units
and prepares public reports based on these reviews. The reviews assess Unit performance in
accordance with the 12 MFCU performance standards and monitor Unit compliance with Federal
grant requirements.

HOW WE DID THIS STUDY
We based our review on an analysis of data from seven sources: (1) a review of policies,
procedures, and documentation of the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of Unit
staff; (5) structured interviews with the Unit Director and supervisors; (6) an onsite review of
case files; and (7) an onsite review of Unit operations, conducted in August 2013.

WHAT WE FOUND
For fiscal years (FYs) 2010 through 2012, the Texas Unit reported recoveries of over
$844 million, 339 criminal convictions, and 48 civil judgments and settlements. Our review
found no evidence of significant noncompliance with applicable laws, regulations, or policy
transmittals. However, we found that the Unit did not transmit all conviction information to OIG
in a timely manner.

WHAT WE RECOMMEND
We recommend that the Texas Unit ensure that it transmits information about all convictions to
OIG for exclusion within 30 days of sentencing. The Unit concurred with our recommendation.
TABLE OF CONTENTS
Objective ..................................................................................................................1 

Background ..............................................................................................................1 

Methodology ............................................................................................................4 

Findings....................................................................................................................5 

           For FYs 2010 through 2012, the Unit reported recoveries of over 

           $844 million, 339 criminal convictions, and 48 civil judgments                                                         

           and settlements .............................................................................................5 

           The Unit did not transmit all conviction information to OIG in a                                                           

           timely manner ..............................................................................................6 

           Case files contained documentation indicating supervisory approval 

           for opening and closing and supervisory reviews........................................6 

           The Unit maintained proper fiscal control of its resources ..........................6 

           Other observation: The Unit does not require supervisory reviews 

           for “preliminary open” cases, which are often open longer than 90 days ...7 

           Other observation: The Unit implemented an outreach program                                                                    

           to increase the visibility of the Unit and to generate referrals .....................7 

Conclusion and Recommendations ..........................................................................8 

           Unit Comments and Office of Inspector General Response .......................9 

Appendixes ............................................................................................................10 

           A: 	2012 Performance Standards ...............................................................10 

           B: 	1994 Performance Standards................................................................17 

           C: 	Expanded Methodology .......................................................................21 

           D: 	Referrals of Provider Fraud and Patient Abuse and Neglect to the 

               Texas MFCU by Source, FYs 2010 Through 2012 .............................23 

           E: 	Investigations Opened and Closed by Provider Category and 

               Case Type, FYs 2010 Through 2012 ...................................................24 

           F: 	Point Estimates and Confidence Intervals Based on Review of Case 

               Files......................................................................................................26 

           G: Unit Comments ....................................................................................27 

Acknowledgments..................................................................................................28 

                  OBJECTIVE
                  To conduct an onsite review of the Texas State Medicaid Fraud Control
                  Unit (MFCU or Unit).

                  BACKGROUND
                  The mission of State MFCUs, as established by Federal statute, is to
                  investigate and prosecute fraud and patient abuse and neglect by Medicaid
                  providers under State law.1 Pursuant to Title XIX of the Social Security
                  Act (SSA), each State must maintain a certified Unit unless the Secretary
                  of Health and Human Services determines that operation of a Unit would
                  not be cost-effective because (1) minimal Medicaid fraud exists in that
                  State; and (2) the State has other, adequate safeguards to protect Medicaid
                  beneficiaries from abuse and neglect.2 Currently, 49 States and the
                  District of Columbia (States) have created such Units.3 In Federal fiscal
                  year (FY) 2012, combined Federal and State grant expenditures for the
                  Units totaled $217.4 million.4
                  To carry out its duties in an effective and efficient manner, each Unit must
                  employ an interdisciplinary staff that consists of at least an investigator, an
                  auditor, and an attorney.5 Unit staff review complaints provided by the
                  State Medicaid agency and other sources and determine their potential for
                  criminal prosecution and/or civil action. In FY 2012, the 50 Units
                  collectively reported 1,337 convictions, 823 civil settlements or
                  judgments, and recoveries of approximately $2.9 billion.6



                  1
                    Social Security Act (SSA) § 1903(q)(3).

                  2
                    Ibid., §§ 1902(a)(61) and 1903(q)(3). Regulations at 42 CFR § 1007.11(b)(1) add that 

                  the Unit’s responsibilities may include reviewing complaints of misappropriation of

                  patients’ private funds in residential health care facilities. 

                  3
                    North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                  Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. Office of

                  Inspector General (OIG), Medicaid Fraud Control Units. Accessed at 

                  http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp on May 22, 2013. 

                  4
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2012-statistical-chart.htm on November 12, 2013. 

                  5
                    SSA § 1903(q)(6) and 42 CFR § 1007.13.

                  6
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                  November 20, 2012. Recoveries are defined as the amount of money that defendants are 

                  required to pay as a result of a settlement, judgment, or pre-filing settlement in criminal 

                  and civil cases and may not reflect actual collections. Recoveries may involve cases that

                  include participation by other Federal and State agencies. 





Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                                1
                  Units are required to have either Statewide authority to prosecute cases or
                  formal procedures to refer suspected criminal violations to an office with
                  such authority.7 Currently, MFCUs operate in 49 States and in the District
                  of Columbia. Forty-four of the MFCUs (including the Texas MFCU) are
                  located within offices of State Attorneys General; the remaining 6 MFCUs
                  operate within other State agencies.8 Each Unit must be a single,
                  identifiable entity of State government, distinct from the single State
                  Medicaid agency, and must develop a formal agreement (i.e.,
                  Memorandum of Understanding) that describes its relationship with that
                  agency.9
                  Oversight of the MFCU Program
                  The Secretary of Health and Human Services delegated to OIG the authority
                  both to annually certify the Units and to administer grant awards to
                  reimburse States for a percentage of their costs of operating certified Units.10
                  All Units are currently funded by the Federal Government on a 75-percent
                  matching basis, with the States contributing the remaining 25 percent.11 To
                  receive Federal reimbursement, each Unit must submit an application to
                  OIG.12 OIG reviews the application and notifies the Unit whether it is
                  approved and the Unit is certified. Approval and certification are valid for a
                  1-year period; the Unit must be recertified each year thereafter.13
                  Pursuant to Title XIX of the SSA, States must operate Units that effectively
                  carry out their statutory functions and meet program requirements.14 OIG
                  developed and issued 12 performance standards to define the criteria it
                  applies in assessing whether a Unit is effectively carrying out statutory
                  functions and meeting program requirements.15 Examples of standards
                  include maintaining an adequate caseload through referrals from several
                  sources, maintaining an annual training plan for all professional disciplines,

                  7
                    SSA § 1903(q)(1).
                  8
                    OIG, Medicaid Fraud Control Units. Accessed at http://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/index.asp on May 21, 2013. 

                  9
                    SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 1007.9(d).

                  10
                     The portion of funds reimbursed to States by the Federal government for its share of

                  expenditures for the Federal Medicaid program, including the MFCUs, is called Federal

                  Financial Participation (FFP) . 

                  11
                     SSA § 1903(a)(6)(B).

                  12
                     42 CFR § 1007.15(a).

                  13
                     42 CFR § 1007.15(b) and (c).

                  14
                     SSA § 1902(a)(61). 

                  15
                     77 Fed. Reg. 32645 (June 1, 2012). Accessed at http://oig.hhs.gov/authorities/docs/ 

                  2012/PerformanceStandardsFinal060112.pdf on November 6, 2013. Previous

                  performance standards, established in 1994, are found at 59 Fed. Reg. 49080 (Sept. 26, 

                  1994). Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/files/Performance%20Standards.pdf on November 15, 2013. 





Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                            2
                  and establishing policy and procedure manuals to reflect the Unit’s
                  operations. See Appendix A for a complete list of the 2012 performance
                  standards and Appendix B for a complete list of the 1994 performance
                  standards.
                  Texas Medicaid Program
                  The Texas Medicaid program is housed within the Texas Health and
                  Human Services Commission. The Texas Medicaid program provides
                  services to over 4.4 million beneficiaries, 75 percent of whom are enrolled
                  in managed care.16 Total Texas Medicaid expenditures for FY 2012 were
                  over $28 billion.17
                  Texas Unit
                  The Texas Unit is housed within the Texas Office of the Attorney General
                  (OAG). For FY 2012, the State and Federal Governments awarded the
                  Unit a combined total of approximately $15.9 million.18 At the time of our
                  August 2013 review, the Unit employed 187 staff members—1 director,
                  1 deputy director, 12 regional investigative managers, 14 attorneys,
                  82 investigators, and 36 auditors. The Unit headquarters is located in
                  Austin, Texas’s capital. The Unit has 12 regional investigative teams:
                  1 located with headquarters staff in Austin, 2 in Dallas, 3 in Houston, and
                  1 in each of 6 other cities (Corpus Christi, Dallas, El Paso, Houston,
                  Lubbock, McAllen, San Antonio, and Tyler).
                  OAG has the authority to investigate criminal cases of Medicaid fraud and
                  cases of patient abuse and neglect, and the agency presents these cases to
                  local district attorneys and the United States Attorneys’ Offices for
                  prosecution. For civil cases of Medicaid fraud, including “global”—i.e.,
                  multi-State—cases, OAG delegates litigation authority to its Civil
                  Medicaid Fraud Division (CMFD), which operates separately from the
                  Unit. 19 The Unit provides investigative support to the CMFD through data
                  analysis, record reviews, and interviews.



                  16
                     Center for Medicaid and CHIP Services, Medicaid.gov Texas Medicaid Statistics.
                  Accessed at http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-
                  State/texas.html on September 16, 2013.
                  17
                     OIG, MFCU Statistical Data for FY 2012. Accessed at http://oig.hhs.gov/fraud/
                  medicaid-fraud-control-units-mfcu/maps/interactive-map2012.asp on November 11,
                  2013.
                  18
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and
                  Statistics. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2012-statistical-chart.htm on September 16, 2013.
                  19
                     Texas Human Resources Code, ch. 36, “Medicaid Fraud Prevention.” Accessed at
                  http://www.statutes.legis.state.tx.us/Docs/HR/htm/HR.36.htm on November 12, 2013.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                          3
                  METHODOLOGY
                  We based our review on an analysis of data from seven sources: (1) a
                  review of policies, procedures, and documentation of the Unit’s
                  operations, staffing, and caseload; (2) a review of financial
                  documentation; (3) structured interviews with key stakeholders; (4) a
                  survey of Unit staff; (5) structured interviews with the Unit Director and
                  supervisors; (6) an onsite review of case files; and (7) an onsite review of
                  Unit operations, conducted in August 2013. See Appendix C for a
                  complete description of the methodology. 
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                    4
                  FINDINGS

                  For FYs 2010 through 2012, the Unit reported
                  recoveries of over $844 million, 339 criminal
                  convictions, and 48 civil judgments and settlements
                  For FYs 2010 through 2012, the Unit reported combined criminal and civil
                  recoveries of over $844 million. See Table 1. During the review period,
                  criminal recoveries ranged from $67 million in FY 2010 to $199 million in
                  2012. Civil recoveries, including “global” and nonglobal civil recoveries,
                  accounted for over $451 million during FYs 2010 through 2012.20, 21
                  During the review period, total recoveries ranged from nearly
                  $180 million in FY 2010 to over $473 million in FY 2012.
                  Table 1: Texas MFCU Recoveries, FYs 2010 Through 2012

                    Recovery Type                     FY 2010          FY 2011          FY 2012               Total
                                                                                                        Recoveries

                    Criminal                     $67,089,463     $125,986,255     $199,406,572         $392,482,290


                    Global Civil                 $28,528,838      $26,200,896       $45,541,149        $100,270,883


                    Non-Global Civil             $84,235,510      $38,681,619     $228,738,021         $351,655,150


                    Total Recoveries           $179,853,811      $190,868,770     $473,685,742         $844,408,323


                  Source: OIG analysis of Unit self-reported data, FYs 2010 through 2012.

                  The Unit reported 339 criminal convictions and 48 civil judgments and
                  settlements during FYs 2010 through 2012. See Table 2.
                  Table 2: Texas MFCU Convictions and Civil Judgments and Settlements,
                  FYs 2010 Through 2012

                    Outcomes                                FY 2010         FY 2011         FY 2012           Total

                    Criminal Convictions                          92             118            129            339

                    Civil Judgments and Settlements               16              15              17            48

                  Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2010 through 2012.


                  20
                     Global civil recoveries include only the State share of funds recovered from
                  multi-State, or “global,” civil false claims cases, including cases on which Unit staff
                  assisted the CMFD, cases worked directly by the Unit, and cases worked by staff from
                  other Units.
                  21
                     In 2012, the CMFD finalized a $158 million settlement from Johnson & Johnson and
                  its subsidiaries for defrauding the Texas Medicaid program.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                                         5
                  The Unit did not transmit all conviction information to
                  OIG in a timely manner
                  According to Performance Standard 8, the Unit should transmit to OIG
                  reports of all convictions for the purpose of exclusion from Federal health
                  care programs. The 1994 Performance Standards indicate that convictions
                  should be reported within 30 days of sentencing “or other reasonable time
                  period”; the 2012 Performance Standards stipulate that convictions should
                  be reported within 30 days of sentencing.
                  The Unit transmitted information on nearly all (321 of 324) of the
                  convictions that should have been sent to OIG for exclusion.22 However,
                  for many of the cases, the Unit did not transmit this information in a
                  timely manner. Specifically, the Unit transmitted conviction information
                  to OIG more than 90 days after sentencing for 22 percent of convictions
                  (70 of 324).

                  Case files contained documentation indicating
                  supervisory approval for opening and closing
                  and supervisory reviews
                  According to Performance Standard 5(b), Unit supervisors should approve
                  the opening and closing of cases to ensure a continuous case flow and the
                  timely completion of cases. We found that 96 percent of case openings
                  and 100 percent of case closings contained documentation of supervisory
                  approval. Additionally, according to Performance Standard 6(c),
                  supervisory review should be conducted periodically and noted in the case
                  file to ensure timely completion of cases. The Unit director reported that
                  the Unit’s standard is for supervisory reviews to be conducted on cases
                  every 90 days. In on our review of 77 case files that were open 90 days or
                  longer, 99 percent of cases received supervisory reviews and included
                  documentation of reviews in the case file.

                  The Unit maintained proper fiscal control of its
                  resources
                  According to Performance Standard 11, the Unit should exercise proper
                  fiscal control over the Unit’s resources, such as maintaining an equipment
                  inventory and applying accepted accounting principles in its control of
                  Unit funding. We did not identify any deficiencies with internal controls
                  related to accounting, budgeting, personnel, procurement, and property.


                  22
                    At the time of our review, the Unit was either waiting on additional documentation or
                  did not have documentation on the remaining three convictions.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                               6
                  Other observation: The Unit does not require
                  supervisory reviews for “preliminary open” cases,
                  which are often open longer than 90 days
                  Twenty of the Unit’s open cases were designated “preliminary open”
                  cases. Preliminary open cases are cases in which investigative activity
                  occurs, but supervisors have not yet decided whether to open a full
                  investigation. Although Unit procedures require supervisory reviews
                  every 90 days for cases open under full investigation, the Unit did not
                  have a procedure for supervisory review of preliminary open cases. We
                  found that almost all of the Unit’s preliminary open cases (18 of 20 cases)
                  were open longer than 90 days. Further, 16 of the 20 preliminary open
                  cases did not receive supervisory reviews.

                  Other observation: The Unit implemented an
                  outreach program to increase the visibility of the Unit
                  and to generate referrals
                  The Unit recently instituted an outreach program to ensure that the public
                  is aware of the Unit’s presence and mission for the purpose of increasing
                  the number of referrals to the Unit. The Unit requires all investigators and
                  investigative auditors to make one outreach contact per month, or
                  12 contacts per year. Unit employees make these contacts in a variety of
                  ways, including meeting with staff from various law enforcement agencies
                  or other public agencies; presenting information about the Unit to
                  associations or at conferences; or hosting a MFCU information booth at a
                  conference. The Unit reported that the outreach program’s purpose is to
                  increase its presence and that it has received referrals as a result of these
                  outreach contacts, although we did not verify the number of these
                  referrals.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                 7
                  CONCLUSION AND RECOMMENDATIONS
                  For FYs 2010 through 2012, the Texas Unit reported recoveries of over
                  $844 million, 339 criminal convictions, and 48 civil judgments and
                  settlements. Additionally, the Unit reported implementing an outreach
                  program to increase MFCU visibility and referrals.
                  Our review of compliance issues found no evidence of significant
                  noncompliance with applicable laws or regulations. However, we found
                  one opportunity for improvement in the Unit’s operations. As a result, we
                  recommend that the Texas Unit:
                  Ensure that it transmits information about all convictions to
                  OIG for exclusion within 30 days of sentencing
                  The Unit should ensure that it transmits information about individuals
                  convicted of fraud, abuse, or neglect within 30 days of sentencing,
                  consistent with MFCU performance standard 8(f).




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)              8
                  UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  The Unit concurred with the report recommendation.
                  The Unit identified changes that it is implementing to ensure timely
                  submission of conviction information to OIG, including placing a priority
                  on conviction notifications and establishing a new tracking process.
                  The full text of the Unit’s comments is provided in Appendix G. We did
                  not make any changes to the report as a result of the Unit’s comments.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                 9
                  APPENDIX A
                  2012 Performance Standards
                  [77 Fed. Reg. 32645, June 1, 2012]
                  1. 	A unit conforms with all applicable statutes, regulations, and
                      policy directives, including:
                       a.	 Section 1903(q) of the Social Security Act, containing the basic
                           requirements for operation of a MFCU;
                       b.	 Regulations for operation of a MFCU contained in 42 CFR 

                           part 1007; 

                       c.	 Grant administration requirements at 45 CFR part 92 and Federal
                           cost principles at 2 CFR part 225;
                       d.	 OIG policy transmittals as maintained on the OIG Web site; and
                       e.	 Terms and conditions of the notice of the grant award.
                  2. 	A Unit maintains reasonable staff levels and office locations in
                      relation to the State’s Medicaid program expenditures and in
                      accordance with staffing allocations approved in its budget.
                       a.	 The Unit employs the number of staff that is included in the Unit’s
                           budget estimate as approved by OIG.
                       b.	 The Unit employs a total number of professional staff that is
                           commensurate with the State’s total Medicaid program
                           expenditures and that enables the Unit to effectively investigate
                           and prosecute (or refer for prosecution) an appropriate volume of
                           case referrals and workload for both Medicaid fraud and patient
                           abuse and neglect.
                       c.	 The Unit employs an appropriate mix and number of attorneys,
                           auditors, investigators, and other professional staff that is both
                           commensurate with the State’s total Medicaid program
                           expenditures and that allows the Unit to effectively investigate and
                           prosecute (or refer for prosecution) an appropriate volume of case
                           referrals and workload for both Medicaid fraud and patient abuse
                           and neglect.
                       d.	 The Unit employs a number of support staff in relation to its
                           overall size that allows the Unit to operate effectively.
                       e.	 To the extent that a Unit maintains multiple office locations, such
                           locations are distributed throughout the State, and are adequately
                           staffed, commensurate with the volume of case referrals and
                           workload for each location.


Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                 10
                  3. 	A Unit establishes written policies and procedures for its
                      operations and ensures that staff are familiar with, and adhere to,
                      policies and procedures.
                       a.	 The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance
                           standards, for the investigation and (for those Units with
                           prosecutorial authority) prosecution of Medicaid fraud and patient
                           abuse and neglect.
                       b.	 The Unit adheres to current policies and procedures in its 

                           operations. 

                       c.	 Procedures include a process for referring cases, when appropriate,
                           to Federal and State agencies. Referrals to State agencies,
                           including the State Medicaid agency, should identify whether
                           further investigation or other administrative action is warranted,
                           such as the collection of overpayments or suspension of payments.
                       d.	 Written guidelines and manuals are readily available to all Unit
                           staff, either online or in hard copy.
                       e.	 Policies and procedures address training standards for Unit 

                           employees. 

                  4. 	A Unit takes steps to maintain an adequate volume and quality of
                      referrals from the State Medicaid agency and other sources.
                       a.	 The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                       b.	 The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                       c.	 The Unit provides timely information to the State Medicaid or
                           other agency when the Medicaid or other agency requests
                           information on the status of MFCU investigations, including when
                           the Medicaid agency requests quarterly certification pursuant to
                           42 CFR 455.23(d)(3)(ii).
                       d.	 For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit
                           takes steps, such as the development of operational protocols, to
                           ensure that pertinent agencies refer such cases to the Unit,


Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                   11
                            consistent with patient confidentiality and consent. Pertinent
                            agencies vary by State but may include licensing and certification
                            agencies, the State Long Term Care Ombudsman, and adult
                            protective services offices.
                       e.	 The Unit provides timely information, when requested, to those
                           agencies identified in (D) above regarding the status of referrals.
                       f.	 The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                  5. 	A Unit takes steps to maintain a continuous case flow and to
                      complete cases in an appropriate timeframe based on the
                      complexity of the cases.
                       a.	 Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       b.	 Supervisors approve the opening and closing of all investigations
                           and review the progress of cases and take action as necessary to
                           ensure that each stage of an investigation and prosecution is
                           completed in an appropriate timeframe.
                       c.	 Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                  6. 	A Unit’s case mix, as practicable, covers all significant provider
                      types and includes a balance of fraud and, where appropriate,
                      patient abuse and neglect cases.
                       a.	 The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                       b.	 For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a
                           commensurate number of managed care cases in its mix of cases.
                       c.	 The Unit seeks to allocate resources among provider types based
                           on levels of Medicaid expenditures or other risk factors. Special
                           Unit initiatives may focus on specific provider types.
                       d.	 As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit
                           has original jurisdiction to investigate or prosecute patient abuse
                           and neglect cases.
                       e.	 As part of its case mix, the Unit seeks to maintain, consistent with
                           its legal authorities, a balance of criminal and civil fraud cases.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                    12
                  7. 	A Unit maintains case files in an effective manner and develops a
                      case management system that allows efficient access to case
                      information and other performance data.
                       a.	 Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                       b.	 Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                       c.	 Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                       d.	 Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                       e.	 The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                       f.	 The Unit has an information management system that allows for
                           the monitoring and reporting of case information, including the
                           following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a
                                     case referred by the State Medicaid agency or other
                                     referring source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the
                                     number of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of
                                     individuals or entities charged, and the number of pending
                                     prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution
                                     ordered in a criminal case and the dollar amount of
                                     recoveries and the types of relief obtained through civil
                                     judgments or prefiling settlements.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                    13
                  8. 	A Unit cooperates with OIG and other Federal agencies in the
                      investigation and prosecution of Medicaid and other health care
                      fraud.
                       a.	 The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in
                           the State.
                       b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations,
                           and cases that have been referred to the Unit by OIG or another
                           Federal agency.
                       c.	 The Unit makes available, to the extent authorized by law and
                           upon request by Federal investigators and prosecutors, all
                           information in its possession concerning provider fraud or fraud in
                           the administration of the Medicaid program.
                       d.	 For cases that require the granting of “extended jurisdiction” to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                       e.	 For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                       f.	 The Unit transmits to OIG, for purposes of program exclusions
                           under section 1128 of the Social Security Act, all pertinent
                           information on MFCU convictions within 30 days of sentencing,
                           including charging documents, plea agreements, and sentencing
                           orders.
                       g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                  9. 	A Unit makes statutory or programmatic recommendations, when
                      warranted, to the State government.
                       a.	 The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation
                           of the Unit, including amendments to the enforcement provisions
                           of the State code.
                       b.	 The Unit, when warranted and appropriate, makes other regulatory
                           or administrative recommendations regarding program integrity
                           issues to the State Medicaid agency and to other agencies


Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                  14
                            responsible for Medicaid operations or funding. The Unit monitors
                            actions taken by the State legislature and the State Medicaid or
                            other agencies in response to recommendations.
                    10. 	A Unit periodically reviews its Memorandum of Understanding
                         (MOU) with the State Medicaid agency to ensure that it reflects
                         current practice, policy, and legal requirements.
                       a.	 The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that
                           it reflects current practice, policy, and legal requirements.
                       b.	 The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with
                           State Medicaid fraud control units,” and 42 CFR 455.23,
                           “Suspension of payments in cases of fraud.”
                       c.	 The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the Centers for Medicare
                           & Medicaid Services (CMS).
                       d.	 Consistent with Performance Standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                       e.	 The MOU incorporates by reference the CMS Performance
                           Standard for Referrals of Suspected Fraud from a State Agency to
                           a Medicaid Fraud Control Unit.
                  11. 	A Unit exercises proper fiscal control over Unit resources.
                       a.	 The Unit promptly submits to OIG its preliminary budget
                           estimates, proposed budget, and Federal financial expenditure
                           reports.
                       b.	 The Unit maintains an equipment inventory that is updated 

                           regularly to reflect all property under the Unit’s control. 

                       c.	 The Unit maintains an effective time and attendance system and
                           personnel activity records.
                       d.	 The Unit applies generally accepted accounting principles in its
                           control of Unit funding.
                       e.	 The Unit employs a financial system in compliance with the
                           standards for financial management systems contained in
                           45 CFR 92.20.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                 15
                  12. 	A Unit conducts training that aids in the mission of the Unit.
                       a.	 The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that
                           is at least as stringent as required for professional certification.
                       b.	 The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                       c.	 Professional certifications are maintained for all staff, including
                           those that fulfill continuing education requirements.
                       d.	 The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and
                           as funding permits.
                       e.	 The Unit participates in cross training with the fraud detection staff
                           of the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State
                           Medicaid agency.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                    16
                  APPENDIX B
                  Performance Standards for Medicaid Fraud Control Units
                  [59 Fed. Reg. 49080, Sept. 26, 1994]
                  1. 	A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                       a.	 The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                       b.	 The Unit must be separate and distinct from the single State
                           Medicaid agency.
                       c.	 The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                       d.	 The Unit must submit annual reports, with appropriate 

                           certifications, on a timely basis.

                       e.	 The Unit must submit quarterly reports on a timely basis.
                       f.	 The Unit must comply with the Americans with Disabilities Act,
                           the Equal Employment opportunity requirements, the Drug Free
                           workplace requirements, Federal lobbying restrictions, and other
                           such rules that are made conditions of the grant.
                  2. 	A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Does the Unit employ the number of staff that was included in the
                           Unit’s budget as approved by the OIG?
                       b.	 Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit’s budget?
                       c.	 Does the Unit employ a reasonable size of professional staff in
                           relation to the State’s total Medicaid program expenditures?
                       d.	 Are the Unit office locations established on a rational basis and are
                           such locations appropriately staffed?
                  3. 	A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit have policy and procedure manuals?




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                 17
                       b.	 Is an adequate, computerized case management and tracking
                           system in place?
                  4. 	A Unit should take steps to ensure that it maintains an adequate
                      workload through referrals from the single State agency and other
                      sources. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud 

                           referrals? 

                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse
                           complaints are received from all sources?
                  5. 	A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the 

                           proportion of Medicaid expenditures for particular provider 

                           groups? 

                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                  6. 	A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?



Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                   18
                  7. A Unit should have a process for monitoring the outcome of cases.
                     In meeting this standard, the following performance indicators will be
                     considered:
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                  8. 	A Unit will cooperate with the OIG and other Federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports
                           of convictions, and copies of Judgment and Sentence or other
                           acceptable documentation within 30 days or other reasonable time
                           period?
                  9. 	A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State’s statutes when necessary and appropriate
                           to do so?



Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                  19
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                    10. 	A Unit should periodically review its memorandum of
                         understanding (MOU) with the single State Medicaid agency and
                         seek amendments, as necessary, to ensure it reflects current law
                         and practice. In meeting this standard, the following performance
                         indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                  11. 	The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                  12. 	A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff aid to the mission of the
                           Unit?



Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                  20
                  APPENDIX C
                  Expanded Methodology
                  We based our review on an analysis of data from seven sources: (1) a
                  review of policies, procedures, and documentation of the Unit’s
                  operations, staffing, and caseload; (2) a review of financial
                  documentation; (3) structured interviews with key stakeholders; (4) a
                  survey of Unit staff; (5) structured interviews with the Unit director and
                  supervisors; (6) an onsite review of case files; and (7) an onsite review of
                  Unit operations conducted in August 2013.
                  We analyzed data from all seven sources to describe the caseload and
                  assess the performance of the Unit. We also analyzed data to identify any
                  opportunities for improvement and identify any instances in which the
                  Unit did not meet the performance standards or was not operating in
                  accordance with laws, regulations, and policy transmittals.23
                  In addition, we noted any practices that appeared to benefit the Unit. We
                  based these observations on statements from Unit staff, data analysis, and
                  our own judgment. We did not independently verify the effectiveness of
                  these practices, but included the information because it may be useful to
                  other Units in their operations.
                  Data Collection and Analysis
                  Review of Unit Documentation. We reviewed policies, procedures, and
                  documentation of the Unit’s operations, staffing, and cases, including its
                  annual reports, quarterly statistical reports, and responses to recertification
                  questionnaires.
                  Review of Financial Documentation. We reviewed Unit policies and
                  procedures related to budgeting, accounting systems, cash management,
                  procurement, property, and personnel. We obtained from the Unit its
                  claimed grant expenditures for FYs 2010 through 2012 so that we could
                  (1) reconcile final Financial Status Reports and the supporting
                  documentation; (2) purposively select and review transactions within
                  direct-cost categories to determine whether costs were allowable; and
                  (3) verify that indirect costs were accurately computed using the approved
                  indirect cost rate. Finally, we verified that the Unit properly reported its
                  program income received directly from cases.
                  Interviews with Key Stakeholders. We conducted structured interviews
                  with key stakeholders who were familiar with the operations of the Unit.


                  23
                    All relevant regulations, statutes, and policy transmittals are available online at
                  http://oig.hhs.gov.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                             21
                  Specifically, we interviewed staff from the Office of Inspector General
                  within the Texas Health and Human Services Commission, Department of
                  Human Services; the Department of Aging and Disability Services; an
                  Assistant District Attorney; two Assistant U.S. Attorneys; two HHS OIG
                  investigators who worked closely with the Unit during the review period;
                  one managed care organization (AmeriGroup) that operates in Texas; and
                  a Federal Bureau of Investigation agent who worked closely with the Unit
                  during the review period. These interviews focused on the Unit’s
                  interaction with external agencies.
                  Survey of Unit Staff. We administered an electronic survey to Unit staff in
                  the weeks leading up to the onsite review. We requested and received
                  responses from 170 of 183 nonmanagerial staff members, a 93-percent
                  response rate. Our questions focused on operations, opportunities for
                  improvement, and effective practices.
                  Interviews with Unit Management and Staff. We conducted structured
                  interviews with the Unit Director, the Unit Deputy Director, the Chief
                  Investigator, the Chief Auditor, the Director of Law Enforcement for the
                  OAG, a Regional Investigative Manager, and an Assistant Attorney
                  General. We asked respondents to provide information to better illustrate
                  the Unit’s operations, identify opportunities for improvement and effective
                  practices, and clarify information we obtained from other data sources.
                  Onsite Review of Case Files. We selected a statistically valid, simple
                  random sample of 100 case files from the 3,332 cases that were open at
                  any point during FYs 2010 through 2012. From these 100 case files, we
                  selected another simple random sample of 50 files for a more in-depth
                  review. After initial examination of all 3,332 case files, we found that
                  57 case files were CMFD cases and were outside the scope of our review.
                  We excluded one CMFD case that appeared in our sample of 100. There
                  were no CMFD cases in the sample of 50 case files that received an
                  in-depth review. Our results project to the population of 3,275 cases.
                  We reviewed 99 sampled case files for documentation of supervisory
                  approval for the opening and closing of cases, periodic supervisory
                  reviews, timeliness of case development, and the Unit’s processes for
                  monitoring the status and outcomes of cases. We reviewed the
                  50 sampled case files for selected issues, such as the appropriateness and
                  timeliness of investigations. See Appendix E for point estimates and
                  95-percent confidence intervals.
                  Onsite Review of Unit Operations. We reviewed the Unit’s operations
                  during our onsite visit. Specifically, we reviewed the process for
                  receiving referrals, electronic case management, security of case files, and
                  general functioning of the Unit.


Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)               22
         APPENDIX D
         Referrals of Provider Fraud and Patient Abuse and Neglect to the
         Texas MFCU by Source, FY 2010 Through 2012
         Table D-1: Total MFCU Referrals of Fraud and Abuse

          Case Type                                                     FY 2010              FY 2011                    FY 2012

          Provider Fraud                                                           589                   438                      344

          Patient Abuse and Neglect                                                197                   117                       82

          Total                                                                    786                   555                      426

         Source: Texas MFCU response to OIG data request.

         Table D-2: MFCU Referrals, by Referral Source

                                                   FY 2010                         FY 2011                        FY 2012

                                                          Patient                         Patient                          Patient
          Referral Source                 Provider                       Provider                        Provider
                                                         Abuse and                       Abuse and                        Abuse and
                                           Fraud                           Fraud                          Fraud
                                                          Neglect                         Neglect                          Neglect

          Medicaid Agency                        170                0              85               0             54                 0

          State Survey/Certification               63          173                 71               94            43                 62

          State Agencies – Other                     7              1               1               0               5                0

          Licensing Boards                           5              0               7               0               1                0

          Law Enforcement                          60               4              25               7             39                 6

          HHS OIG                                  36               0              57               0             23                 0

          Prosecutors                                0              2               0               1               0                2

          Providers                                17               0              15               1             17                 3

          Private Health Insurers                    1              0               1               0               2                0

          Ombudsman                                  5              0               2               0               0                0

          Adult Protective Services                  0              8               0               4               1                3

          Private Citizens                         36               4              50               7             29                 5

          MFCU Hotline                               2              0               2               0               1                0

          Other                                  187                5             122               3          129                   1

          Total Referrals Received               589           197                438          117             344                   82

         Source: Texas MFCU response to OIG data request.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                                       23
         APPENDIX E
         Investigations Opened and Closed by Provider Category and Case
         Type, FY 2010 Through 2012
         Table E-1: Total Annual Opened and Closed Investigations

                                                    FY 2010                   FY 2011                     FY 2012
          Case Type
                                                Opened      Closed       Opened        Closed         Opened       Closed

          Provider Fraud                            588          551         434            500           343          421

          Patient Abuse and Neglect                 197          315         117            144            82          121

          Total                                     785          866         551            644           425          542

         Source: Texas MFCU response to OIG data request.

         Table E-2: Investigations of Patient Abuse and Neglect

                                                          FY 2010                 FY 2011                  FY 2012
          Provider Category
                                                   Opened       Closed      Opened      Closed         Opened      Closed

          Nursing Facilities                              52           58         31            38         29           35

          Other Long-Term-Care Facilities                   2           3          5              4            6            4
          Nurses/Physician’s Assistants/Nurse
                                                           86        147          49            55         30           50
          Practitioners/Certified Nurse Aides

          Home Health Aides                                 2           3          0              0            0            2

          Other                                            55        104          32            47         17           30

          Total                                           197        315       117           144           82          121

         Source: Texas MFCU response to OIG data request.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                                               24
Table E-3: Investigations of Provider Fraud


Provider Category                              FY 2010                   FY 2011                   FY 2012


                 Facilities             Opened         Closed       Opened       Closed       Opened       Closed

Hospitals                                      10               7            8            8        13               8

Nursing Facilities                             11           17           17               9            1            6

Other Long-Term-Care Facilities                    6            2            0            1            0            0

Substance Abuse Treatment Centers                  4            4            0            5            2            6

Other Facilities                               19           24           11           16           17           16

               Practitioners            Opened         Closed       Opened       Closed       Opened       Closed

Doctors of Medicine or Osteopathy              86           87           57           71           62           60

Dentists                                       50           33           49           44           59           20

Podiatrists                                        0            2            2            2            8            2

Optometrist/Opticians                              4            2            0            3            0            3

Counselors/Psychologists                       12           15               9            5            7            8

Chiropractors                                      0            2            0            1            1            0

Other Practitioners                                9            4            6            3            5            8

              Medical Support           Opened         Closed       Opened       Closed       Opened       Closed

Pharmacies                                     28           10               9            8            9        13

Pharmaceutical Manufacturers                   16           15               9        12               4        19
Suppliers of Durable Medical                  113           93           77           92           30          105
Equipment
Laboratories                                       6        13               1            9            1            0

Transportation Services                            8        21           15           35           24           25

Home Health Care Agencies                     111           56           52           82           44           52

Nurses/Physician’s Assistants/Nurse
                                               49           75           73           72           40           38
Practitioners/Certified Nurse Aides

Radiologists                                       0            2            0            1            1            2

Other Medical Support                          38           57           22           19           12           18

            Program Related             Opened         Closed       Opened       Closed       Opened       Closed

Managed Care                                       0            1            1            0            0            1

Medicaid Program Administration                    5            1        15               0            2        11

Billing Company                                    3            8            1            2            1            0

All Fraud Investigations                Opened         Closed       Opened       Closed       Opened       Closed

                   Total                      588          551          434          500          343          421

Source: Texas Unit response to OIG data request.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                                 25
         APPENDIX F
         Point Estimates and Confidence Intervals Based on Review of Case
         Files
                                                                                       95-Percent
                                                            Sample          Point   Confidence Interval
          Estimate Characteristic
                                                              Size       Estimate
                                                                                    Lower             Upper

          CMFD case files outside the scope of
                                                               100          1.00%    0.03%            5.45%
          our review

          Open case files containing
          documentation of supervisory                          79         96.20%   89.30%           99.21%
          approval for opening

          Closed case files containing
          documentation of supervisory                          52        100.00%   93.25%                100%
          approval for closing

          Open cases files that were open
          longer than 90 days containing                        77         98.70%   92.98%           99.97%
          documentation of supervisory review


         Source: OIG analysis of Unit case files, 2013. 

           We excluded the 20 “preliminary open” cases from this analysis. 





Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                               26
          APPENDIX G
          Unit Comments




                                                                  ATTORNEY GENERAL OF TEXAS
                                                                                          GREG                 AllllOTT




                     March 18,2014

                     Stuart Wright
                     Deputy lns:pectot· Oeneml for Evaluations and Inspections
                     U.S. L>cpartmcnt of Health and Human Services
                     Office of the Inspector General
                     Room 5660. Cohen Building
                     330 lmlcpcndence Avenue, SW
                     Washington, DC 20201

                     RE: Texas MfCU 2()13 Onsitc Review

                     Dear Mr. Wright:

                     We appreciate the opportunity to review and commcmt on the 2013 Onsite Review and the exceptional
                     professionalism cxbihitcd by your review stan·. Put'<uant to your request. we offor the following
                     comments on the single recommendation presented in the "'!'<lrt:

                     Rl>commendation
                     Ensure that the Texas MFCU mmsmits information about flll convictions to 010 for exclusion within 30
                     o:Utys of sentencing.

                     Comments
                    \Vc concur with this recommendation. Immediately following the identification of Ihi;; issue, we revised
                    the closing J)l'ocess to place a priority on conviction notifications. We. also eS-tablished a tracking pi'Occss
                    ensure compliance. While 11 majorit)' of the ca,;c, that did not meet the 30-day reporting rule were without
                    mitigation, a signitlcant number would haw been in compliance under the Jl!'e\•ious standard of "30 days
                    or other reasonable time period." The prc,·ious standard t-eeognlzed tltat in some cases it is impo:<sihlc for
                    MFClJs to report a canviction within 30 dnys. ln TcxHs, this is due to si?.e of our state and me fact we do
                    not have original prosecution jurisdiction. We <iepend on !50 district attomcy's offices in 254 cmmties and
                    27U.S. Attorney's Offices for the prosecution of our cases. In remo-te locations it is often difficuh to
                    obtain judgment documcniJILion in a timely manner. We would recommend th:tt the 30-dny rule be
                    amc:ru:led tc1 ali<)W for situations in which the timely suomi.siun is out of the c.ontrol of a unit.

                     The Texas Medicaid Fraud Control Unit appreciates the ciT"rts of JIHS-010 I<) provide guidance and
                     positi•·e input to assist us in achieving the highest standards possil:>lc.

                     Sincerely yot>rs,

                              /S/
                     W. Rick Copeland
                     Director, Medicaid Fraud Control Unit


                               1'~:<5'1'   0Ft'lt:l! lh>:X   I.:!H~.   AL!lts, Ttl\,\5 7b711 ·ZH!:f                          !   bL (511H63· 2 [1)0 ..,.         II.' I\' {1<\C.   H'l'Jt. l \.   ,,~

                                                                  ,•l.o h.jv.u' J:•f'•'~)f#UI l)f'}:'r;'~.ll!l) i:.:oiJ?Jn       l'nJt.Ui ~- ltur,;(d J'i<J-'U




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)                                                                                                                           27
         ACKNOWLEDGMENTS
         This report was prepared under the direction of Kevin Golladay, Regional
         Inspector General for Evaluation and Inspections in the Dallas regional office;
         Blaine Collins, Deputy Regional Inspector General; and Ruth Ann Dorrill, Deputy
         Regional Inspector General.
         Lyndsay Patty served as the Team Leader for this study and Ben Gaddis served as
         the Lead Analyst. Other Office of Evaluation and Inspections staff who provided
         support include Maria Balderas. Office of Investigations staff who provided
         support includes Lynn Melear and Jason Weinstock. Office of Audit Services
         staff who provide support include Nancy Bibb, Francine Olguin, Jenny Potter,
         John Retzloff, and Sylvie Witten. Central office staff who provided support
         include Thomas Brannon, Kevin Farber, Christine Moritz, Richard Stern, and
         Sherri Weinstein.




Texas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00300)         28
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
